              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections




Inspection Report
Oversight of Shock Sensitive Chemicals
at the Department’s Ames Laboratory




DOE/IG-0615                                 August 2003
                                  Department of Energy
                                      Washington, DC 20585




FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on “Oversight of Shock Sensitive
                         Chemicals at the Department’s Ames Laboratory”

BACKGROUND

Shock sensitive chemicals, which are used throughout the Department of Energy (DOE)
complex, have the potential to undergo a rapid reaction that can release relatively large amounts
of energy that may be violent enough to produce an explosive detonation. Therefore, properly
managing them is critical to ensuring the safety of personnel, as well as the protection of DOE
assets. The U.S. Chemical Safety and Hazard Investigation Board reported that reactive
chemicals, which include shock sensitive chemicals, have become a significant safety problem.
According to the Board, between 1980 and 2002 there were 167 incidents nationally involving
these chemicals that resulted in 108 fatalities. Consequently, the Office of Inspector General
(OIG) conducted a review to determine the adequacy of management controls over shock
sensitive chemicals at the Ames Laboratory.

RESULTS OF INSPECTION
We concluded that, although Ames has documented requirements in place for controlling shock
sensitive chemicals, implementation shortcomings have resulted in shock sensitive chemicals not
being properly controlled, raising concerns with respect to personnel safety and the protection of
DOE assets. Specifically, we found that:

   0   Ames has not implemented a life cycle management system to ensure the proper
       identification, labeling, tracking, storage, handling, and disposition of shock sensitive
       chemicals; and

       Ames has a safety performance measure broad enough to encompass management
       controls over shock sensitive chemicals; however, associated assessment procedures for
       the performance measure do not specifically address shock sensitive chemicals.

We also determined that the Department does not have a standard definition or listing of shock
sensitive chemicals. Consequently, there is inconsistent handling among DOE sites of chemicals
that may be shock sensitive.

We recommended that the Assistant Secretary for Environment, Safety and Health (1) develop
and implement a Departmental definition and/or list of shock sensitive chemicals; and



                                    @     Printed with soy ink on recycled paper
..




     (2) evaluate whether Department-wide standards for controlling shock sensitive chemicals
     should be developed and then appropriately implement the results of that evaluation.

     We also recommended that the Manager of the Chicago Operations Office ensure that (1) a
     review is conducted at Ames to ensure all shock sensitive chemicals currently on-site are
     properly controlled, (2) a life cycle management system is implemented at Ames to properly
     control shock sensitive chemicals, and (3) Ames incorporates an assessment of whether shock
     sensitive chemicals are being properly controlled as part of its safety walk-through process.

     MANAGEMENT REACTION

     In comments on our draft report, the Assistant Secretary for Environment, Safety and Health
     agreed that the management of shock sensitive chemicals needs to be enhanced. She also
     provided alternatives to the recommendations addressed to her. While the OIG has not replaced
     its recommendations with those identified by the Assistant Secretary because of their orientation
     towards identifylng specific corrective actions, the actions identified appear to be responsive to
     the intent of our recommendations and, when implemented, should address our concerns.

     The Manager of the Chicago Operations Office concurred with our recommendations to him and
     identified a number of corrective actions that have been taken that appear to address our
     recommendations.


     Attachment

     cc: Deputy Secretary
         Under Secretary for Energy, Science and Environment
         Assistant Secretary for Environment, Safety and Health
         Manager, Chicago Operations Office
OVERSIGHT OF SHOCK SENSITIVE CHEMICALS AT THE
DEPARTMENT'S AMES LABORATORY



TABLE OF
CONTENTS

              OVERVIEW

              Introduction and Objective ...................................................... 1

              Observations and Conclusions .............................................      2


              DETAILS OF FINDINGS

              Lack of Management Oversight System..............................               3

              Performance Measurement.....................................................    4

              Definition of Shock Sensitive Chemicals.............................. 4


              RECOMMENDAT~ONS..........................................................       5


              MANAGEMENT AND INSPECTOR COMMENTS .......... 5


              APPENDICES

              A. Management Comments ..................................................       7

              B- Scope and Methodology ................................................... 13
Overview

INTRODUCTI0N    The Office of Inspector General initiated a review to determine the
AND OBJECTIVE   adequacy of management controls over shock sensitive chemicals
                at the Department of Energy’s (DOE’s) Ames Laboratory (Ames),
                which is located in Iowa. Ames is administered by DOE’s
                Chicago Operations Office and is managed and operated by Iowa
                State University (ISU) under contract with DOE.

                Proper management of shock sensitive chemicals, which are used
                throughout the DOE complex, is critical to ensuring the safety of
                personnel and the protection of DOE assets. Shock sensitive
                chemicals have the potential to undergo a rapid reaction that can
                release relatively large amounts of energy that may be violent
                enough to produce an explosive detonation. The U.S. Chemical
                Safety and Hazard Investigation Board reported that reactive
                chemicals, which include shock sensitive chemicals, have become
                a significant safety problem. According to the Board, between
                1980 and 2002 there were 167 incidents nationally involving these
                chemicals that resulted in 108 fatalities. Nearly 30 percent of these
                incidents occurred at storage, handling, and consumer sites.

                The objective of this inspection was to determine whether Ames
                has an adequate system to ensure the proper identification,
                labeling, tracking, storage, handling, and disposition of shock
                sensitive chemicals. Also, pursuant to the Government
                Performance and Results Act of 1993 (GPRA), we reviewed
                Ames’ performance measurement process as it relates to Ames’
                management controls over shock sensitive chemicals.




Page ’I                        Oversight of Shock Sensitive Chemicals at the
                               Department‘s Ames Laboratory
c




    OBSERVATIONS AND   We concluded that, although Ames has adopted reasonable
    CONCLUSIONS        documented requirements for management of shock sensitive
                       chemicals, implementation shortcomings have resulted in shock
                       sensitive chemicals not being properly controlled, raising concerns
                       with respect to personnel safety and the protection of DOE assets.
                       Specifically, we found that:

                           Ames has not implemented a life cycle management system to
                           ensure the proper identification, labeling, tracking, storage,
                           handling, and disposition of shock sensitive chemicals; and

                       0   Arnes has a safety performance measure broad enough to
                           encompass management controls over shock sensitive
                           chemicals; however, associated assessment procedures for the
                           performance measure do not specifically address shock
                           sensitive chemicals.

                       We also determined that the Department does not have a standard
                       definition or listing of shock sensitive chemicals. Consequently,
                       there is inconsistent handling among DOE sites of chemicals that
                       may be shock sensitive.




    Page 2                                             Observations and Conclusions
Details of Findings

Lack of Management   We determined that, although Ames has documented requirements
Oversight System     in place for controlling shock sensitive chemicals, Ames has not
                     implemented a life cycle management system to ensure the proper
                     identification, labeling, tracking, storage, handling, and disposition
                     of shock sensitive chemicals. Title 29, Code of Federal
                     Regulations (CFR), Part 1910.1450, “Occupational exposure to
                     hazardous chemicals in laboratories,” states that a chemical
                     hygiene program shall be developed at facilities where hazardous
                     chemicals are used and control measures shall be implemented to
                     reduce employee exposure. The CFR also includes guidance
                     derived fiom an industry standard pertaining to shock sensitive
                     chemicals, which provides that laboratories should maintain
                     quantities for immediate use or less than a 3- to 6-month supply.
                     Further, the CFR states that such chemicals should be labeled,
                     dated, inventoried, and disposed of prior to their expiration date.

                     The effects and force of a detonation involving a shock sensitive
                     chemical varies with the type of chemical. Pursuant to a
                     requirement in the CFR, Ames prepared a Chemical Hygiene Plan
                     (CHJ?), and it provides specific guidance for managing different
                     types of shock sensitive chemicals. The Ames CHP notes that
                     certain chemicals can form peroxides when exposed to air and can
                     explode if subjected to heat, friction, or impact. The Ames CHP
                     states that these chemicals should be dated upon receipt and
                     opening and that they should be disposed of within 6 months of
                     opening or 12 months of purchase. The Ames CHP states that
                     certain chemicals form severe peroxide hazards in storage when
                     exposed to air and should be discarded within 3 months. It hrther
                     states that other chemicals are inherently explosive, but are
                     relatively safe if stored using adequate precautions. For example,
                     picric acid can detonate with the same effects as an equal amount
                     of dynamite, but it is relatively safe when stored as a water-wet
                     paste.

                     We identified 46 laboratories or chemical storage rooms at Ames
                     that contained shock sensitive chemicals and reviewed the shock
                     sensitive chemicals stored in 9 of them. Our sampling found that
                     the majority of the chemicals were not marked with the dates that
                     the chemicals were received and, where applicable, opened. Most
                     of the chemical containers were partially empty, indicating that
                     they probably had been opened at some time. We determined that
                     the few chemical containers that bore dates of receipt were beyond
                     the recommended disposal date. Some chemicals had purchase
                     and/or expiration dates that were over 10 years prior to the time of
                     our fieldwork. For example, we found a chemical container with



Page 3                                                               Details of Findings
                      an expiration date of April 1992, and the chemical contained
                      therein was characterized by the Ames CHP as belonging in the
                      3-month disposition category. We also identified two questionable
                      containers of picric acid. As previously stated, picric acid is
                      considered to be safe if stored as a water-wet paste. However, one
                      of the two containers bore an expiration date of October 1996, and
                      the other had an expiration date of October 1999. For safety
                      purposes, we did not open either container to confirm the presence
                      of water because the fiction of removing the cap potentially could
                      have caused the chemical to detonate if it had deteriorated to a
                      nonwater-wet paste state.

                      We leamed that issues regarding controls over shock sensitive
                      chemicals at Ames have been raised previously. A 1992 DOE
                      assessment at Ames found that several shock sensitive chemicals
                      had not been labeled with the date of receipt or opening. In
                      addition, the assessment noted that a 1989 Environmental Survey
                      Preliminary Report found inadequate labeling, tracking, storage,
                      and disposal of peroxide forming chemicals.

Performance           As part of implementing GPRA, the Department is required to
Measurement           establish program goals and subsequently measure performance
                      against those goals. We found that the contract between ISU and
                      DOE contains a performance measure that includes provisions for
                      an annual safety walk-through. However, our review of the safety
                      walk-through procedures disclosed that the safe storage and
                      handling of shock sensitive chemicals is not specifically included.
                      Given the serious potential consequences associated with the
                      improper management of shock sensitive chemicals, we believe the
                      procedures should be modified to specifically include a review of
                      internal controls over shock sensitive chemicals.

Definition of Shock   We determined that there is no standardized Departmental
Sensitive Chemicals   definition or list of shock sensitive chemicals. We reviewed shock
                      sensitive chemical storage and handling procedures from three
                      Department facilities. We noted that each site’s procedures
                      contained a list of shock sensitive chemicals and that these lists
                      were inconsistent. For example, a chemical identified as shock
                      sensitive by one facility was not being handled as shock sensitive
                      by Ames. We believe that the dangers associated with shock
                      sensitive chemicals necessitate their accurate and consistent
                      identification throughout the Department complex.




Page 4                                                              Details of Findings
RECOMMENDATIONS   We recommend that the Assistant Secretary for Environment,
                  Safety and Health:

                  1. Develop and implement a Departmental definition andor list of
                      shock sensitive chemicals.

                  2. Evaluate whether Department-wide standards for the
                     identification, labeling, tracking, handling, storage, and
                     disposal of shock sensitive chemicals should be developed, and
                     appropriately implement the results of this evaluation.

                  We recommend that the Manager, Chicago Operations Office
                  ensure that:

                  3. A review is conducted at Ames to ensure the proper
                     identification, labeling, tracking, handling, storage, and
                     disposal of all shock sensitive chemicals currently on-site.

                  4. A life cycle management system is implemented at Ames to
                     properly identify, label, track, handle, store, and dispose of
                     shock sensitive chemicals.

                  5. Ames incorporates an assessment of whether shock sensitive
                     chemicals are being properly identified, labeled, tracked,
                     handled, stored, and disposed of as part of its safety
                     walk-through process.

MANAGEMENT AND    In comments on our draft report, the Assistant Secretary for
INSPECTOR         Environment, Safety and Health agreed that the management of
COMMENTS          shock sensitive chemicals needs to be enhanced. She also
                  provided alternatives to recommendations 1 and 2. Regarding
                  recommendation 1, the following were provided:

                  0   The Office of Safety and Health should produce and publish a
                      Safety Notice on the subject of shock sensitiveh-eactive
                      chemicals. T h s Notice will be distributed across the complex
                      via an electronic mail broadcast and [provide] direction to
                      program offices.

                  0   Revise appropriate documents to include a section on shock
                      sensitive chemicals and provide a list of chemicals that are
                      recognized as being shock sensitive.



Page 5                                                    Recommendations
                                         Management and Inspector Comments
         0   A future Chemical Management Workshop should make the
             topic of shock sensitive chemicals a focus for the workshop.

         Regarding recommendation 2, the following were provided:

         0   Require widespread dissemination to the field offices for the
             use of the Chemical Safety Topical Committee product, the
             DOE chemical management handbooks, and the upcoming
             volume 3 of the handbook (“A Roadmap to Chemical User
             Safety and Health Requirements,” which is a consolidation of
             safety and health requirements applicable to chemical-related
             work at DOE).

         0   Continue to stay abreast of developments in the area of reactive
             chemical management being led by the Chemical Safety Board
             with the involvement of the Occupational Safety and Health
             Administration, the Environmental Protection Agency, and
             several industry trade associations, and make relevant
             information available to the DOE community through the
             chemical management web page, periodic safety bulletins, and
             direction to program offices.

         While the OIG has not replaced its recommendations with those
         identified by the Office of Environment, Safety and Health (EH)
         because of their orientation towards identifjmg specific corrective
         actions, the actions identified by EH appear to be responsive to the
         intent of our recommendations and, when implemented, should
         address our concerns.

         The Manager of the Chicago Operations Office (CHO) concurred
         with recommendations 3,4, and 5, and identified what appear to be
         appropriate corrective actions.

         The verbatim comments provided by EH and CHO are included as
         Appendix A.




Page 6                          Management and Inspector Comments
DOE F 1325.8
W93)             Appendix A
United States Government                                                             Department of Energy

memorandum
     DATE:
                 JUN 2 3 2005
REPLY TO
 ATTN OF:      Office of Worker Protection Policy and Programs:Bill McArthur:3-9674

 SUBJECT       RESPONSE TO DRAFT INSPECTION REPORT, OVERSIGHT OF SHOCK-SENSITWE
               CHEMICALS AT THE DEPARTMENT'S AMES LABORATORY

         TO:   Christopher R. Sharpley, IG-40
               Thank you for the opportunity to respond to the recommended actions in your Draft
               Inspection Report, Oversight of Shock-Sensitive Chemicals at the Department's Ames
               Laboratory.

               I am very aware of the importance of good chemical management and the need to assess the
               hazards of chemicals which are shock sensitive. The Office of Safety and Health, in
               cooperation with the Energy Facility Contractors Group, sponsors and hosts an annual
               Chemical Safety Workshop. These workshops provide a forum for the Department of Energy
               (DOE) complex to exchange lessons learned and best practices on the safe management of
               chemicals and has covered the topic of shock-sensitive chemicals for the past 3 years. As your
               review identified, appropriate actions are still not fully implemented. Therefore, greater
               awareness and direction needs to be provided to the DOE Field Offices and contractors to
               enhance the management of shock-sensitive chemicals.

               Attached, in response to your memorandum dated June 5,2003, and the subject draft
               inspection report, are my comments on recommended actions 1 and 2. For additional
               information, please contact Dr. Bill McArthur, Office of Worker Protection Policy and
               Programs, on 3-9674 (or bill.mcarthur@eh.doe.gov).




                                                        Beverly A. C o o u
                                                        Assistant Secretary
                                                        Environment, Safety and Health

               Attachment




                    Page 7
       Appendix A
       (continued)
                 Response to Office of Inspector General Recommendations
                 for the Assistant Secretary, Environment, Safety and Health
                          on the June 2003 Draft Inspection Report,
         Oversight of Shock-Sensitive Chemicals at the Department’s Ames Laboratory


Recommendation 1 : Develop and implement a uniform departmental definition and list of
                   shock-sensitive chemicals.

Given the available knowledge and technology regarding the identification of shock-sensitive
chemicals, it is currently not feasible for the Department of Energy (DOE) to develop a specific
definition or a list of shock-sensitive chemicals.

There is currently no consensus in the scientific community as to the exact definition of and the
criteria for determining a shock-sensitive chemical. Existing lists of chemicals that may be
shock-sensitive generally include the caveat that the list is only to be used as a guide, and not all
shock-sensitive materials are included. Additionally, there is a great deal of uncertainty
regarding the hazards and safe handling of peroxidizable organic chemicals. This is due, in part,
to the fact that no definitive data are available about the concentration at which these peroxides
pose a hazard. Several common peroxide detection methods may not detect all types of unstable
peroxides. Similarly, some common deoxidation procedures may not remove all types of
unstable peroxides.

The topic of shock-sensitiveheactive chemicals has been a major topic of the annual Chemical
Safety Workshop hosted by the Office of Safety and Health. Presentations, training sessions,
and discussions of this topic were presented by Federal, industry, and professional organizations
including DOE Federal and contractor representatives, the Chemical Safety Board (CSB), and
the Center for Chemical Process Safety. In 2002 a working group (Methods for Addressing the
Hazards of Shock-Sensitive, Time-Sensitive, and Reactive Chemicals) was formed to address
this issue. This group, composed of Federal and contractor staff from across the complex, will
examine the issue and present their findings and conclusions during the 2003 workshop.

A list of past workshop presentations on this subject is given below.

Joint DOEEnergy Facility Contractors Group (EFCOG) Chemical Management 2000 Workshop
(October 24-26,2000)

 o Identification and Management of Shock-SensitivelTime-SensitiveReactive Chemicals
   (Dave Quigley, Idaho National Engineering and Environmental Laboratory; David Blair,
   Environmental and Technical Specialists, Inc.; Lydia Boada-Clista, DOE Ohio Field Office)




Page 8                                                                  Management Comments
    Appendix A
    (continued)

Joint DOE/EFCOG Chemical Management 2001 Workshop (October 23-25,2001)
  o Reactive and Toxic Chemical Hazards--A Management Challenge, Evaluating Chemical
     Reactivity Hazards (Scott Berger, American Institute of Chemical Engineers-Center for
     Chemical Process Safety)
  o Dealing with Potentially Shock-Sensitive Chemical Wastes B A Status Report of Oak Ridge
     Chemical Deactivation/Processing Activities (Charlie Satterwhite and James Bailey,
     Bechtel Jacobs Company/Oak Ridge)

Joint DOEEFCOG Chemical Management 2002 Workshop (November 5-7,2002);
TECHNICAL SESSION - Enhancing Controlsfor Unstable and Reactive Chemical Hazards

  o Managing Potentially Shock-Sensitive Legacy Chemicals: An Update on Oak Ridge
    Chemical Deactivation/Processing Activities (James Bailey, Bechtel Jacobs Company/
    Oak Ridge)

  o A Programmatic Approach to Managing Unstable, Reactive, and Toxic Chemicals
    (Fred Simmons, Westinghouse Savannah River Company)

  o Identification and Management of Shock-Sensitive and Reactive Chemicals
    (Lydia Boada-Clista, DOE Ohio Field Office)

  o CSB=s Reactive Chemical Hazard Investigations B Lessons Learned and
    Recommendationsfor Improving Reactive Hazard Management (John Murphy,
    Chemical Safety Board)

  o A Comprehensive Approach to Managing Reactive Chemical Hazards (Scott Berger,
    American Institute of Chemical Engineers-Center for Chemical Process Safety)

Alternate Recommendations:

  o The Office of Safety and Health should produce and publish a Safety Notice on the subject
    of shock-sensitiveheactivechemicals. This Notice will be distributed across the complex
    via an electronic mail broadcast and direction to program offices.

  o Revise appropriate documents to include a section on shock-sensitive chemicals and provide
    a list of chemicals that are recognized as being shock sensitive.

  o A future Chemical Management Workshop should make the topic of shock-sensitive
    chemicals a focus for the workshop.

Recommendation 2: Evaluate whether Department-wide standards for the identification,
                  labeling, tracking, handling, storage, and disposal of shock-sensitive
                  chemicals should be developed and appropriately implement the results of
                  this evaluation.


 Page 9                                                            Management Comments
    Appendix A
    (continued)


The Office of Safety and Health has published a two-volume handbook, Chemical Management.
Volume 1 provides information for assessing chemical hazard management within the context of
the site's Integrated Management System. Chapters in this handbook include hazard analysis,
acquisition, inventory and tracking, storage, control of chemical hazards, and disposal. While
not specific to shock-sensitive chemicals, the recommendations in this volume should be applied
to all chemicals. Volume 2 presents site approaches to chemical programs implementation from
across the DOE complex and the chemical industry.

These documents present approaches to chemical management, whch should be applied to &l
chemicals that include shock-sensitive as well as other hazardous chemicals.

Alternate Recommendations:

  o Require widespread dissemination to the field offices for the use of the Chemical Safety
    Topical Committee product, the DOE chemical management handbooks, and the upcoming
    volume 3 of the handbook (A Roadmap to Chemical User Safety and Health Requirements,
    which is a consolidation of safety and health requirements applicable to chemical-related
    work at DOE).

  o Continue to stay abreast of developments in the area of reactive chemical management
    being led by the Chemical Safety Board with the involvement of the Occupational Safety
    and Health Administration, the Environmental Protection Agency, and several industry
    trade associations, and make relevant information available to the DOE community
    through the chemical management web page, periodic safety bulletins, and direction to
    program offices.




Page 10                                                            Management Comments
          Appendix A
          (continued)
                               Department of Energy
                                  Chicago Operations Office
                                  9800 South Cass Avenue
                                   Argonne, Illinois 60439
                                            JUW3 02003
Christopher R.Sharpley
Acting Assistant Inspector General
 for Inspections
IG-40 FORS

SUBJECT:       COMMENTS ON DRAFT INSPECTION REPORT ON "OVERSIGHT OF SHOCK
               SENSITIVE CHEMICALS AT AMES LABORATORY" DATED JUNE 5,2003

Reference:     Memorandum, C. Sharpley to Assistant Secretary for Environment, Safety and
               Health, and Manager, Chicago Operations Office, dated June 5,2003, Subject:
               Draft Inspection Report on "Oversight of Shock Sensitive Chemicals at the
               Department's Ames Laboratory"

Thank you for the opportunity to review the referenced draft report and offer feedback. The
audit conducted from January 28-30,2003 identified serious deficiencies in Ames Laboratory's
implementation of their documented procedures for shock sensitive/peroxide forming chemicals
which have since been corrected. Additional control measures have been added to the
chemical inventory and tracking procedures, including a life cycle management system.
Overall, we find the report conclusions to be appropriate and have offered only two comments
for your consideration.

Due to hazard potential associated with the improperly labeled and stored chemicals, corrective
actions were implemented immediately upon identification. These corrective actions should be
effective in preventing further issues with regard to improper labeling and storage of the date
sensitive chemicals. Immediately following the January audit, the Laboratory, in consultation
with the Ames Area Office, conducted an inspection of the chemical holdings in all Ames
Laboratory occupied space. This inspection team included experts in chemical safety from
Ames Laboratory, from Iowa State University, and the Department of Energy (DOE) Facility
Representative. A qualified vendor was used to assist with removal and disposal of the
improperly labeledlstored chemicals identified as a result of both the Inspector General audit
and the broader follow-on inspection.

The Ames Area Office has participated in subsequent monthly safety walk-throughs of various
laboratories with chemical inventories and has found the new controls to be effective to date.
Additional DOE oversight will continue to monitor the effectiveness of the corrective actions
implemented as a result of this audit.

Recommendations
I fully support and concur on each of the three recommendations (3,4, and 5) addressed to the
Manager, Chicago Operations Office. Please note that for recommendation 5 "ISU" should be
changed to "Ames". Corrective actions have been implemented as follows:

Recommendafion 3: The Laboratory has completed a review of Ames chemical storage to
ensure the proper identification, labeling, tracking, handling, storage, and disposal of peroxide-
forming chemicals. This action was completed February 19, 2003. The Ames Area Office
participated in the review and has been in communication with the Laboratory


Page 11                              Printed on Recycled Paper
  Appendix A
  (continued)
Christopher R. Sharpley                       -2-                              Jut4 3 0 2003
on the management of shock sensitive/peroxide forming chemicals since the completion of the
IG audit. They have participated in the development of corrective actions including the
implementation of a life cycle management system. The Ames Area Office will continue to
monitor the Laboratory's management practices via walkthroughs and surveillance activities.

Recommendation 4: Ames Laboratory has devised and implemented a life cycle management
system for the management of shock sensitive/peroxide forming chemicals. This system
includes the identification of materials and ensures disposal prior to expiration dates. A site-
wide label for peroxide forming chemicals was developed and implemented February 19, 2003.

Recommendation 5: Note that for this recommendation "ISU"should be replaced by "Ames".
As stated above, the Laboratory had implemented a life cycle management system for the
management of these chemicals. The Laboratory's IndependentWalk Through Program had
been modified to include an emphasis on time-sensitive chemicals, effective February 2003.
Additionally, safety personnel are conducting quarterly inspections of Laboratory space to
assure the appropriate management of shock sensitive/peroxideforming chemicals, effective
June 2003.

Comments on Observations and Conclusions

1) During the audit closeout the Ames Area Office and the Laboratory understood that the IG
audit included positive observations and conclusions regarding documented requirements and
training. Audit recommendations and further follow-on review by the Laboratory did not identify
particular issues with these areas. For completeness, two new bullets stating these
observations and conclusions are requested to be included in the report:
0   Ames has adopted reasonable documented requirements for management of shock-
    sensitive chemicals, although a significant number of examples were found of containers
    that were not properly labeled.
    Ames researcher staff has an understanding of the special precautions for handling and
     storage of shock-sensitive chemicals, supported by chemical hygiene training.

2) The first sentence in first paragraph implies that Ames has not implemented a chemical
management system. A more accurate statement would be:

       "We determined that the chemical management system implemented at Ames does not
       effectively ensure the proper identification, labeling, tracking, storage, handling, and
       disposition of shock sensitive chemicals."

If you have any questions in regard to this                                Purucker, Ames
Area Office Manager, at 630-252-2096.



                                              Manager

cc:    M. Johnson, SC-3, FORS, w/o end.
       K. Coates, SC-62, GTN, w/o encl.




Page 12
Appendix B

SCOPE AND     We reviewed the management control system for shock sensitive
METHODOLOGY   chemicals at the Department’s Ames Laboratory. The inspection
              fieldwork was conducted primarily during January and February
              2003. We identified and reviewed applicable Federal and DOE
              regulations and other key documents applicable to the inspection.
              We interviewed Federal and contractor staff assigned to DOE
              Headquarters, the Chicago Operations Office, and the Ames
              Laboratory. We conducted a physical inspection of facilities at
              Ames. This inspection was conducted in accordance with the
              “Quality Standards for Inspections” issued by the President’s
              Council on Integrity and Efficiency.




Page 13                                             Scope and Methodology
                                                                    IG Report No. DOE/IG-0615

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of hture reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer fiiendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.i g.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
